-5727

No.

IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF THE UNITED STATES

SEP 0 9 2021
OFFICE OF THE CLERK

Franlr P-j gngvr, g #10132-040 __ PETITIONER

(Your Name)
VS.
UNITED STATES OF AMF.KTCA

— RESPONDENT(S)

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Please check the appropriate boxes:
0 Petitioner has previously been granted leave to proceed in forma pauperis in
the following court(s):
UNITED STATES DISTRICT CUORT FOR THE WESTERN DISTRICT OF MTCHTfiAN
SOUTHF/RN DTVTSTON

□ Petitioner has not previously been granted leave to proceed in forma
pauperis in any other court.
□ Petitioner’s affidavit or declaration in support of this motion is attached hereto.
[x] Petitioner’s affidavit or declaration is not attached because the court below
appointed counsel in the current proceeding, and:
0 The appointment was made under the following provision of law:
or

Criminal Justice Act of 1 qfiA: 1B IT.S.P.

□ a copy of the order of appointment is appended.

(Signature)

